No.
PHILLIP DWAYNE Loyp,
Petitioner,
Vv.
UNITED STATES OF AMERICA
Respondent.
AFFIDAVIT OF SERVICE

I, Samuel Parker, of lawful age, being duly sworn, upon my oath state that I did, on
March 19, 2021, send out from Saint Paul, Minnesota 2 packages containing 3
copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

Elizabeth Prelogar
Acting Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

Merrick Garland
Attorney General
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Subscribed and sworn to before me on this 19th day of March, 2021.
Iam duly authorized under the laws of the State of Minnesota to administer oaths.

   
 
  

(przeggecece LEBEL
Se NICHOLAS RATKOWSKI

: NOTARY PUBLIC - MINNESOTA

‘My Commisston Expires Jan, 31, 2024

"SEPR

     

fotary Public Affiant
